             DEPARTMENT OF HEALTH AND HUMAN SERVICES                             Office of Inspector General
                                                                                  Office of Audit Services

                                                                                       REGION IV
                                      OCT     8 2008                        61 Forsyth Street, S.W., Suite 3T41
                                                                                 Atlanta, Georgia 30303



Report Number: A-04-07-04018

Mr. Bruce W. Hughes, President
Palmetto Government Benefits Administrators
2300 Springdale Drive, BLDG One
Mail Code: AG-A03
Camden, South Carolina 29020

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (OIG) final report entitled "Audit of Palmetto Government Benefits
Administrators' Durable Medical Equipment Regional Carrier Final Administrative Cost
Proposals for Fiscal Years 2004 Through 2006." We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date of this
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended
by Public Law 104-231, OIG reports generally are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or through e-
mail at Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-07-04018 in all
correspondence.

                                             Sincerely,



                                             Peter J. Barbera
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Bruce W. Hughes

Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




   AUDIT OF PALMETTO GOVERNMENT
     BENEFITS ADMINISTRATORS'
    DURABLE MEDICAL EQUIPMENT
      REGIONAL CARRIER FINAL
   ADMINISTRATIVE COST PROPOSALS
          FOR FISCAL YEARS
         2004 THROUGH 2006




                      Daniel R. Levinson
                       Inspector General

                        October 2008
                        A-04-07-04018
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops' and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Health Insurance for the Aged
and Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and
a related supplementary medical insurance program (Part B). As a part of the Part B program,
the Act provides for the coverage of Durable Medical Equipment (DME). The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contracts with
private organizations that process and pay Medicare claims. The contracts provide for
reimbursement of allowable administrative costs incurred in processing Medicare claims.

During the audit period, which covered the period October 1,2003, through September 30,2006,
CMS contracted with Palmetto Government Benefits Administrators (Palmetto) to serve as a
Medicare contractor. Palmetto processed DME claims for Alabama, Arkansas, Colorado,
Florida, Georgia, Kentucky, Louisiana, Mississippi, New Mexico, North Carolina, Oklahoma,
Puerto Rico, South Carolina, Tennessee, Texas, and the Virgin Islands. Palmetto reported
administrative costs totaling $197,868,937 in its Final Administrative Cost Proposals (cost
proposals) for fiscal years 2004 through 2006. (See Appendix R)

OBJECTIVE

Our objective was to determine whether the administrative costs that Palmetto reported on its
cost proposals were allowable, allocable, and reasonable in accordance with part 31 of the
Federal Acquisition Regulation (FAR) and the Medicare contract.

SUMMARY OF FINDINGS

Palmetto reported expenditures that substantially complied with the FAR and the Medicare
contract provisions. However, Palmetto reported in its fiscal year 2004 cost proposal $2,177 in
electronic data processing equipment costs that it was unable to support with adequate
documentation. Because Palmetto was unable to provide supporting documentation for certain
individual costs claimed in the cost proposals, these costs did not meet the criteria for Federal
reimbursement.

RECOMMENDATIONS

We recommend that Palmetto:

   •    refund to the Federal Government $2,177 of unallowable costs and.

    •   strengthen its policies and procedures for maintaining documentation to support that costs
        included on its cost proposals were incurred, allocable to the contract, and compliant with
        applicable cost principles.




                                                 1
PALMETTO COMMENTS

In its written comments to the draft report, Palmetto said that it had been notified by the Office
of Inspector General that the unallowable costs had been reduced to $2,177, and it agreed with
this unallowable amount. In addition, Palmetto agreed with our recommendation to strengthen
its policies and procedures.

OFFICE OF INSPECTOR GENERAL RESPONSE

In response to the draft report, Palmetto provided additional documentation supporting that the
costs claimed on the cost proposals adequately reconciled to its general ledger. Accordingly, we
have removed the recommendation included in our draft report regarding unreconciled costs.




                                                 11
                         TABLE OF CONTENTS

                                                              PAGE

INTRODUCTION                                                    1

    BACKGROUND                                                  1

    OBJECTIVE, SCOPE, AND METHODOLOGY                           1
         Objective                                              1
         Scope                                                  1
         Methodology....                                        2

FINDINGS AND RECOMMENDATIONS                                    3

    UNALLOWABLE COSTS                                           3

    RECOMMENDATIONS                                             3

    PALMETTO COMMENTS                                           4

    OFFICE OF INSPECTOR GENERAL RESPONSE                        4

APPENDIXES

    A-   SAMPLING METHODOLOGY

    B-   FINAL ADMINISTRATIVE COST PROPOSALS WITH OFFICE OF
         INSPECTOR GENERAL RECOMMENDED DISALLOWANCES AND
         ACCEPTANCES

    C-   OFFICE OF INSPECTOR GENERAL RECOMMENDED COST
         DISALLOWANCES

    D-   COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO BUDGET
         AUTHORIZATION

    E-   PALMETTO COMMENTS




                                111
                                       INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Health Insurance for the Aged
and Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and
a related supplementary medical insurance program (Part B). As a part ofthe Part B program,
the Act provides for the coverage of Durable Medical Equipment (DME). The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contracts with
private organizations that process and pay Medicare claims.

The contracts with CMS provide for the reimbursement of allowable administrative costs
incurred in processing Medicare claims. After the close of each fiscal year (FY), contractors
submit a Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once
CMS accepts a cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

During our audit period (FYs 2004 through 2006), CMS contracted with Palmetto Government
Benefits Administrators (Palmetto) to serve as a Medicare contractor. Palmetto processed DME
claims for Alabama, Arkansas, Colorado, Florida, Georgia, Kentucky, Louisiana, Mississippi,
New Mexico, North Carolina, Oklahoma, Puerto Rico, South Carolina, Tennessee, Texas, and the
Virgin Islands.

The contract between Palmetto and CMS set forth principles of reimbursement for administrative
costs. The contract cited the Federal Acquisition Regulation (FAR), 48 CFR, chapter 1, as
regulatory principles to be followed for application to the Medicare contract and provided
additional guidelines for specific cost areas.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs that Palmetto reported on its cost
proposals were allowable, allocable and reasonable in accordance with part 31 of the FAR and
the Medicare contract.

Scope

Our audit covered the period October 1, 2003, through September 30,2006 (FYs 2004 through
2006). For this period, Palmetto reported administrative costs to CMS tota!ing $197,868,937.
This total included pension costs of$7,582,939 that we excluded from this review because
pension costs will be the subject of a separate audit.




                                                1
In planning and performing our audit, we reviewed Palmetto's internal controls for allocating
costs to cost objectives in accordance with the FAR and the Medicare contract. We conducted
this analysis to accomplish our objective and not to provide assurance on the internal control
structure.

We conducted fieldwork at Palmetto's office in Columbia, South Carolina, from April 2007
through December 2007.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidelines, including the FAR
        section 31.201-2(d), the Medicare Financial Management Manual, chapter 2, section
        190.3 and Palmetto's contract with CMS;

   •    reconciled the cost proposals from FYs 2004 through 2006 to Palmetto's accounting
        records;

   •    performed analytical tests of Palmetto's trial balances;

   •    selected and reviewed a judgmental sample of invoices, expense vouchers and reports,
        and journal entries;

   •    interviewed Palmetto officials about their cost accumulation processes for cost proposals
        and gained an understanding of their cost allocation systems;

   •    reviewed payroll journals, corporate bonus plans, and personnel records;

   •    selected a stratified random sample of 105 individual employee pay periods and verified
        that the amount paid was in accordance with the employee's pay rate, the salary was
        charged to the correct cost center, and the number of hours paid agreed with the time
        sheets (Sampling Methodology Appendix A); and

    •   tested costs for allowability, allocability, and reasonableness.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.




                                                   2
                          FINDINGS AND RECOMMENDATIONS

Palmetto reported expenditures that substantially complied with the FAR and the Medicare
contract provisions. However, Palmetto reported in its FY 2004 cost proposal $2,177 in
electronic data processing equipment costs that it was unable to support with adequate
documentation. Because Palmetto was unable to provide supporting documentation for certain
individual costs claimed in the cost proposals, these costs did not meet the criteria for Federal
reimbursement.

UNALLOWABLE COSTS

Pursuant to FAR section 31.20l-2(d), Palmetto is responsible for "... maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been
incurred, are allocable to the contract, and comply with applicable cost principles ...."
Likewise, chapter 2 section 190.3 of the Medicare Financial Management Manual states that the
contractor must maintain records "... in such detail as will properly reflect all net costs, direct
and indirect ... for which reimbursement is claimed under the provisions ofthe agreement."

Palmetto was unable to provide adequate supporting documentation for expenditures totaling
$2,177 that it claimed in the electronic data processing equipment category on its FY 2004 cost
proposal.

Palmetto did not provide invoices, contracts, journal entries, expense vouchers, or other such
documentation to support these expenses. Because Palmetto was unable to provide adequate
supporting documentation for these costs totaling $2,177, the costs were unallowable for Federal
reimbursement.

Throughout our audit, Palmetto experienced difficulty and significant delays in obtaining
evidence to support the expenses in its cost proposals. We believe that Palmetto could have
minimized both its efforts and our audit delays by maintaining proper documentation to
adequately support the costs claimed on the cost proposals.

RECOMMENDATIONS

We recommend that Palmetto:

    •   refund to the Federal Government $2,177 of unallowable costs and

    •   strengthen its policies and procedures for maintaining documentation to support that costs
        included on its cost proposals were incurred, allocable to the contra(ft, and compliant with
        applicable cost principles.




                                                  3
PALMETTO COMMENTS

In its written comments to the draft report, Palmetto said that it had been notified by the Office of
Inspector General that the unallowable costs had been reduced to $2,177, and it agreed with this
unallowable amount. In addition, Palmetto agreed with our recommendation to strengthen its
policies and procedures.

OFFICE OF INSPECTOR GENERAL RESPONSE

In response to the draft report, Palmetto provided additional documentation supporting that the
costs claimed on the cost proposals adequately reconciled to its general ledger. Accordingly, we
have removed the recommendation included in our draft report regarding unreconciled costs.




                                                  4
APPENDIXES
                                                                                                 APPENDIX A

                                       SAMPLING METHODOLOGY

OBJECTIVE

Our objective was to determine whether the salary costs that Palmetto reported on its cost
proposals were allowable, allocable, and reasonable in accordance with part 31 ofthe Federal
Acquisition Regulation and the Medicare contract.

POPULATION

The population consisted of52,783 employee pay periods related to $85,744,033 Medicare
Durable Medical Equipment salaries and wages that were charged to Medicare from October 1,
2003, through September 30, 2006.

SAMPLE UNIT

The sample unit was an "employee pay period."l

SAMPLE DESIGN

We used a stratified random sample of employee pay periods for fiscal years 2004, 2005, and
2006. Each FY represented a separate stratum.

SAMPLE SIZE

We selected a sample of 105 employee pay periods that included 35 each from fiscal yers 2004,
2005, and 2006.




IAn "employee pay period" consists of one employee's salaries, wages, and related fringe benefits for one pay
period.
                                                                                                    APPENDIX B


                                           FINAL ADMINISTRATIVE COST PROPOSALS
                  WITH OFFICE OF INSPECTOR GENERAL RECOMMENDED COST DISALLOWANCES AND ACCEPTANCES
                                            For Fiscal Years (FY) 2004, 2005, and 2006

            Cost Category               FY 2004             FY 2005             FY 2006              Total

Salaries & Wages                    $   36,435,420      $   33,979,724      $   29,597,333     $    100,012,477

Fringe Benefits                          10,871,945          11,560,079           9,748,608          32,180,632

Facilities or Occupancy                   3,503,652           4,249,978           3,556,451          11,310,081

EDP Equipment                             5,370,017           6,794,162           2,198,538          14,362,717

Subcontracts                              6,535,045           5,764,174           4,247,181          16,546,400

Outside Professional Services              116,313             309,405              45,876             471,594

Telephone & Telegraph                      831,093             630,272             472,172            1,933,537

Postage & Express                         5,931,842           7,863,694           7,718,577          21,514,113

Furniture & Equipment                      624,700             782,254             322,196            1,729,150

Materials & Supplies                      1,329,033           1,399,900            860,907            3,589,840

Travel                                     915,687             874,935             731,577            2,522,199

Return on Investment                       145,573             101,104               70,442            317,119

Miscellaneous                               (45,997)          1,627,495           6,846,760           8,428,258

Other                                             0           1,097,627                   0           1,097,627

Credits                                  (5,684,229)         (6,532,721 )        (6,343,145)        (18,560,095)

Forward Funding                                   0            177,615             235,673             413,288

  Total Costs Claimed on FACP       $   66,880,094      $    70,679,697     $    60,309,146    $    197,868,937
OIG Recommended Disallowance*               (2,177)                    0                   0             (2,177)
OIG Recommended for Acceptance      $   66,877,917      $    70,679,697     $    60,309,146    $    197,866,760


* See Appendix C
                                                              APPENDIXC


       OFFICE OF INSPECTOR GENERAL RECOMMENDED COST DISALLOWANCES
                            For Fiscal Year (FY) 2004

                                                          Total Durable
                                                        Medical Equipment
          Finding Categories               FY 2004       Disallowances

Unallowable Costs                           $2,177           $2,177
Electronic Data Processing Equipment

Total OIG Recommended Disallowances        $2,177            $2,177
                                                                                                  APPENDIX D
                                                                                                   Page 1 of 3


                                           Palmetto GBA
                     Final Administrative Cost Proposal Durable Medical Equipment
             Fiscal Year 2004 Comparison of Administrative Costs Claimed to Budget Authorization


                                                                                                  Variance
                                                    Budget              Administrative            Favorable
            Operation                            Authorization          Costs Claimed           (Unfavorable)
Program Management
Bills/Claims Payment                            $   24,325,700      $        23,904,307     $          421,393
Appeals                                              8,433,500                9,224,862               (791,362)
Beneficiary Inquiries                                7,395,800                7,687,752               (291,952)
PM Provider Communication                              537,700                  519,085                 18,615
Productivity Investments                               696,200                  861,262               (165,062)
Provider Telephone Inquiries                         5,706,900                5,317,037                389,863
Credits                                             (5,574,700)              (5,506,961 )              (67,739)
    Subtotal Program Management                     41,521,100               42,007,344               (486,244)

Medicare Integrity Program
Medical Review                                       3,299,100                3,044,393                254,707
Medicare Secondary Payer Pre-Payment                   392,200                  377,898                 14,302
Benefit Integrity                                    2,664,400                2,682,680                (18,280)
Local Provider Education & Training                    592,201                  650,698                (58,497)
Provider Communications                              1,987,100                2,246,670               (259,570)
Productivity Investments                            15,205,000               15,059,309                145,691
Medicare Secondary Payer Post-Payment                  848,900                  811,102                 37,798
  Subtotal Medicare Integrity Program               24,988,901               24,872,750                116,151


  Totals                                        $   66,510,001      $        66,880,094     $         (370,093)



Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No.5)
and Notification of Budget Approval (Supplement No. 10).
                                                                                                     APPENDIXD
                                                                                                      Page 2 of 3


                                          Palmetto GBA
                    Final Administrative Cost Proposal Durable Medical Equipment
            Fiscal Year 2005 Comparison of Administrative Costs Claimed to Budget Authorization


                                                                                                     Variance
                                                       Budget              Administrative            Favorable
           Operation                                Authorization          Costs Claimed           (Unfavorable)
Program Management
Bills/Claims Payment                                $   29,319,000     $        28,690,818     $          628,182
Appeals                                                   9,498,200               9,700,610              (202,410)
Beneficiary Inquiries                                     7,093,400               6,811,940               281,460
PM Provider Communication                                   472,600                 452,464                 20,136
Productivity Investments                                    256,500                 201,827                 54,673
Provider Telephone Inquiries                              5,424,500               5,260,414               164,086
Credits                                                  (6,307,700)             (6,292,303)               (15,397)
   Subtotal Program Management                          45,756,500              44,825,770                930,730

Medicare Integrity Program
Medical Review                                           3,044,400               3,042,392                  2,008
Medicare Secondary Payer Pre-Payment                       372,700                 370,622                  2,078
Benefit Integrity                                        3,067,000               3,001,629                 65,371
Local Provider Education & Training                        586,000                 603,660                (17,660)
Provider Communications                                  2,097,200               2,314,390               (217,190)
Productivity Investments                                14,873,000              14,858,294                 14,706
Medicare Secondary Payer Post-Payment                      577,100                 565,313                 11,787
  Subtotal Medicare Integrity Program                   24,617,400              24,756,300               (138,900)

Medicare Modernization Act Contracting Reform            1,097,627               1,097,627                         0

  Totals                                            $   71,471,527     $        70,679,697     $         791,830


Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No.4)
and Notification of Budget Approval (Supplement No. 11).
                                                                                           APPENDIXD
                                                                                            Page 3 of 3


                                          Palmetto GBA
                   Final Administrative Cost Proposal Durable Medical Equipment
           Fiscal Year 2006 Comparison of Administrative Costs Claimed to Budget Authorization


                                                                                            Variance
                                              Budget              Administrative           Favorable
            Operation                      Authorization          Costs Claimed          (U nfavorable)
Program Management
Bills/Claims Payment                       $ 27,094,100       $        26,499,408    $          594,692
Appeals                                        9,720,642                9,895,731              (175,089)
Beneficiary Inquiries                          3,885,800                4,070,991              (185,191)
PM Provider Communication                        124,800                  308,175              (183,375)
Productivity Investments                         215,100                  169,570                45,530
Provider Telephone Inquiries                   4,199,900                4,302,544              (102,644)
Credits                                       (5,281,800)              (6,144,430)              862,630
    Subtotal Program Management               39,958,542               39,101,989               856,553

Medicare Integrity Program
Medical Review                                 1,109,600                1,140,869                (31,269)
Medicare Secondary Payer Pre-Payment             311,200                  326,748                (15,548)
Benefit Integrity                              1,400,900                1,470,791                (69,891 )
Local Provider Education & Training              153,800                  145,164                  8,636
Provider Communications                        2,279,500                2,289,739                (10,239)
Productivity Investment                       15,503,300               15,392,071                111,229
Medicare Secondary Payer Post-Payment            435,800                  441,775                 (5,975)
  Subtotal Medicare Integrity Program         21,194,100               21,207,157                (13,057)


  Totals                                  $   61,152,642      $        60,309,146    $           843,496



Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No. 0)
and Notification of Budget Approval (Supplement No. 20).
                                                                                            APPENDIXE
                                                                                              Page 1 of2




             Palmetto GBA..                                      ----------~-,re$identand
                                                                                                Bruce W. Hughes
                                                                                               Cllief Operating Officer
                 PARTNERS IN EXCELLENCEw


                                                         Office of Inspector General Note: Portions of this
August 8, 2008
                                                         response are no longer applicable because we
                                                         reduced the unreconcilable and unallowable costs
Mr. Peter J. Barbera                                     based on additional documentation submitted by the
Regional Inspector General for Audit Services            auditee.
Region IV
60 Forsyth Street, S.W., Suite 3T41
Atlanta, Georgia 30303

RE: Audit Report Number A-04-07-04018

Dear Mr. Barbera:

We are responding to your draft audit report dated June 25, 2008 entitled "Audit of Palmetto
Government Benefits Administrators' Durable Medical Equipment Regional Carrier Final
Administrative Cost Proposals for Fiscal Years 2004 Through 2006." Thank you for the additional time
to submit our response.

The draft report contained the following recommendations. Our responses to the recommendations are
provided below.


We recommend that Palmetto:
   • Refund to the Federal Government $3,106,489 reported in its cost proposals that did not
      reconcile to its general ledger;
   • Refund to the Federal Government $23,402 of unallowable costs; and
   • Strengthen its policies and procedures for maintaining documentation to support that costs
      included on its cost proposals were incurred, allocable to the contract, and compliant with
      applicable cost principles.


Contractor Response:
   • Since the date of the draft audit report, we have received updated information from the OIG
       auditors indicating that the unreconciled amount is reduced to $13,986 for FY 2005 and $39,997
       for FY 2006. While we recognize that there are difficulties reconciling amounts to the cost
       classification report lines on the FACP, our total costs claimed is fully reconciled to our general
       ledger. Palmetto GBA has maintained a consistent process of monthly reconciliation of all costs
       claimed to the general ledger throughout the periods covered by this audit. It is inequitable not
       to net under-supported and over-supported amounts to arrive at any adjustment to costs. In
       addition, we have reviewed many OIG audit reports that propose both increases and decreases to
       allowable costs and do not understand why that approach is not being followed in this case.
       Based on the fact that our total cost claimed are reconciled to our general ledger, we continue to
       disagree that this cost should be disallowed.
   • Since the date of the draft audit, we have received updated information from the OIG auditors
       indicating that the unallowable costs have been reduced to $2,177. Palmetto GBA agrees with
       this revised amount.
                                   www.palmettogba.comIPost Office Box 100134
                                         ISO 9001:2000 Columbia, South CaroUna 29202-3134
                                                                                                         APPENDIXE
                                                                                                           Page 2 of2




___ Mr. Peter J. Barbera
    August 8, 2008
    Page 2




           •   Palmetto GBA agrees with the recommendation to strengthen our policies and procedures for
               maintaining documentation to support that costs included on our cost proposals were incurred,
               allocable to the contract, and compliant with applicable cost principles. On October 1, 2007, we
               implemented a new accounting system that standardized and automates processes that were
               manual functions. We have also updated work instructions for the new system and will take any
               other steps deemed necessary to implement this recommendation.

           If you have any questions, please feel free to contact me at 803-763-7130.

                                                                 Sincerely,                          )

                                                       ~~ t!V,                             \-\--,r
           cc: William R Horton, BCBSSC
               Joe Wright, Palmetto GBA
               Mark Wimple, OIG




                                          www.palmettogba.comIPost Office Box 100134
                                                ISO 9001 :2000 Columbia, South Carolina 29202·3134
